DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

ASSOCIATE GENERAL COUNSEL

TODD B. TATELMAN
PRINCIPAL DEPUTY GENERAL COUNSEL

MEGAN BARBERO

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

DEPUTY GENERAL COUNSEL

JOSEPHINE MORSE
DEPUTY GENERAL COUNSEL

ADAM A. GROGG
ASSOCIATE GENERAL COUNSEL

SARAH E. CLOUSE
ASSOCIATE GENERAL COUNSEL

JONATHAN B. SCHWARTZ
ATTORNEY

February 18, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

California, et al. v. Texas, et al., No. 19-840

Dear Mr. Harris:
I am counsel of record for the U.S. House of Representatives, which is a respondent
aligned with petitioner in No. 19-840. The House is also the petitioner in No. 19-841, which
arises from the same court of appeals decision as No. 19-840.
On February 14, 2020, the individual and state respondents in Nos. 19-840 and 19-841
filed a conditional cross-petition, which has been docketed as No. 19-1019. I write to inform
you that, although the House disagrees with the merits of the position advanced in the
conditional cross-petition, the House acquiesces to the conditional cross-petition so that no issue
arises regarding the scope of relief the Court may afford should it grant either or both of the
petitions for certiorari filed by the House (19-841) and California and the other defendant States
(19-840). 1 The House reserves its right to argue, as it has in its petition for a writ of certiorari,
that Section 5000A of the Affordable Care Act is wholly severable from the remainder of the
Act.
Additionally, should the Court grant the petition in this case, the House requests that, for
purposes of briefing and argument, the state respondents, the individual respondents, and the
United States be aligned as respondents, and that the House be aligned with petitioner. If the
Court were to grant both this petition and the House’s petition filed in No. 19-841 and to
consolidate the cases, or to grant the House’s petition but not No. 19-840, the same alignment
would be appropriate.
Thank you very much for your time and assistance on this matter.
Very truly yours,
/s/ Douglas N. Letter
Douglas N. Letter
1

The House takes no position on whether a cross-petition is necessary to afford respondents
their requested relief in the specific circumstances of this case.

